      AUDIT OF GSA FLEET’S
   CONTROL OF LICENSE PLATES
  FEDERAL ACQUISITION SERVICE
REPORT NUMBER A070076/Q/5/P08001
        OCTOBER 9, 2007
                              AUDIT OF GSA FLEET’S
                           CONTROL OF LICENSE PLATES
                          FEDERAL ACQUISITION SERVICE
                        REPORT NUMBER A070076/Q/5/P08001

                               TABLE OF CONTENTS

                                                                              PAGE

REPORT LETTER                                                                   1

INTRODUCTION                                                                    2

     Background                                                                 2

     Objective, Scope and Methodology                                           2

RESULTS OF AUDIT                                                                3

     Brief                                                                      3

     Findings and Recommendations                                               4

     PART I – OGP Findings and Recommendations                                  4

             Finding 1- Use of Two License Plates Increases Losses              4

             Finding 2- Lost or Stolen Plates Can Be Used Indefinitely          6

     PART II – FAS Findings and Recommendations                                 7

             Finding 3- Large Quantities of License Plates Kept in Storage      7

             Finding 4- Agencies with State Plates Retain GSA Fleet Plates
                        But Do Not Always Control Them Properly                 8

             Finding 5- Extra Plates Manufactured for Trailers But Not Used    10

             Finding 6- Plates Lost After Vehicle Turn In                      11

             Finding 7- Reporting Losses to Law Enforcement Agencies
                        Not Always Consistent                                  13

     Additional Issue

             UNICOR Manufacturing                                              14
                        TABLE OF CONTENTS
                            (Continued)

                                                                          PAGE

Internal Controls                                                          15

APPENDICES

      A. Office of Governmentwide Policy’s Response to the Draft Report    16

      B. Federal Acquisition Service’s Response to the Draft Report        17

      C. Report Distribution                                               18
                             AUDIT OF GSA FLEET’S
                          CONTROL OF LICENSE PLATES
                         FEDERAL ACQUISITION SERVICE
                       REPORT NUMBER A070076/Q/5/P08001

                                   INTRODUCTION

Background

GSA Fleet (Fleet) owns and operates over 200,000 vehicles it supplies to other Federal
agencies on a reimbursable basis. Fleet provides agencies automobiles, passenger
vans, light, medium and heavy trucks, buses, ambulances, and other more specialized
vehicles. Per GSA Federal Management Regulation (FMR), 102-34.110, Fleet vehicles
are to be equipped with license plates that identify them as Federal vehicles owned by
GSA Fleet, and for official use only. FMR 102-34.145(a) also requires license plates on
both the front and rear of all Federal vehicles except two-wheeled motor vehicles, which
require only a rear plate.

Fleet purchases its license plates from the Federal Prison Industries under a
memorandum of understanding the General Services Administration, Office of
Governmentwide Policy, established with the Federal Prison Industries. The plates
contain holograms and other security measures to deter counterfeiting.

There have been occurrences of Federally issued plates being stolen and placed on
unauthorized vehicles to impersonate government vehicles and divert attention from
illegal activities. Because of the possible security risks these illegal activities pose,
Fleet requested a review of the controls it uses to minimize lost and stolen plates.

Objective, Scope and Methodology

The audit objective was to determine:

      Does GSA Fleet have sufficient controls over its license plates, or are additional
      controls needed?

To accomplish our audit objective we visited Fleet’s Central Office, and Fleet
Management Centers and sub centers at Lanham, Maryland; Baltimore, Maryland;
Milwaukee, Wisconsin; Chicago, Illinois; Houston, Texas; San Antonio, Texas; El Paso,
Texas; Albuquerque, New Mexico; and Phoenix, Arizona. We also visited the Federal
Prison Industries, Inc., which operates under the corporate name UNICOR, at
Cumberland, Maryland. In addition we reviewed license plate regulations, and
contacted state highway patrol headquarters and state vehicle management offices.
The audit team also analyzed vehicle data in the Fleet Management System regarding
lost and stolen license plates. The audit was carried out between December 2006 and
June 2007 in accordance with generally accepted Government auditing standards.



                                           2
                                    RESULTS OF AUDIT

Brief

The audit disclosed two general areas in which we believe control of license plates can
be improved. The first covers regulations controlled by the Office of Governmentwide
Policy (OGP) that govern all license plates for Federal vehicles, addressed in Part I of
the report; and the second covers issues GSA Fleet controls, addressed in Part II of the
report.

We believe OGP can strengthen control of Federal license plates by:

        1. Analyzing whether the Federal Management Regulation (FMR) should be
           changed to require one license plate per Federal vehicle rather than two; and

        2. Continuing its efforts to reach agreement with Federal agencies to change the
           FMR to require Federal license plate expiration dates.

We believe GSA Fleet can strengthen its control of license plates and improve efficiency
by:

        3. Consolidating all license plate inventories into one listing in Fleet’s central
           computer system, and integrating the listing with license plate ordering;

        4. Continuing its initiative to issue only state license plates for vehicles
           authorized to display state plates;

        5. Ensuring excess license plates for trailers are recalled and destroyed;

        6. Destroying license plates as soon as practical once they are no longer
           needed, rather than holding them until vehicles are sold; and

        7. Centralizing its reporting of lost and stolen plates, to the extent practical.

Our review of the Federal Prison Industries procedures for manufacturing GSA Fleet
license plates did not identify any reportable conditions.




                                               3
Findings and Recommendations

PART I – OGP Findings and Recommendations

Finding 1 - Use of Two License Plates Increases Losses

The majority of GSA Fleet license plate losses and thefts involved front plates. This
was due to their greater susceptibility to damage and loss, and the need to display only
one plate in many states. As a result the incident of plate loss or theft was higher with
two plates than would have been the case with one, especially in those states that
required only one plate.

For the period May 1, 2006 through April 30, 2007, Fleet recorded about 1,680 reports
of missing plates, or an average of about 140 per month. Over 80 percent were listed
as missing a single plate rather than sets of plates. Based on statements of Fleet’s field
personnel and the limited number of records that stated whether the front or rear plate
was missing (about 310 reports stated in the remarks section whether the single
missing plate was from the front or back, and 86 percent of these stated the front plate
as missing), the majority of the missing single plates were from the front of vehicles.
This was due to weak front mounting brackets, and the front plates’ greater vulnerability
to harsh weather and road conditions owing to their location on the vehicle, which
subjects them to greater stresses than rear plates. We also learned from a law
enforcement representative that in some cases single Federal license plates have been
stolen from the front of vehicles in states that require only one plate, and used in
smuggling operations.

Replacing missing plates is time-consuming and costly. The actual cost is difficult to
quantify, but the steps required clearly add up. The customer must notify Fleet of the
loss and return the vehicle’s charge card (because it is tied to the license plate number).
In the case of single plate losses, the remaining plate of the set must be sent to Fleet.
Fleet in turn notifies the Federal Protective Service (FPS) to get the loss posted on law
enforcement computers, records the loss in Fleet’s computer system, destroys the
charge card and remaining license plate and documents the destruction. Fleet must
also obtain and furnish the agency a new set of license plates and a matching charge
card, and the vehicle is out of commission until the customer receives the replacements.

Currently, 18 states require vehicles registered in their states to display only a single
plate, typically on the rear. In these states Federal Government owned vehicles missing
the front plate are not likely to be stopped and questioned because front plates are not a
state requirement, and may also not be stopped in states requiring two plates if they are
not aware of the Federal Government’s requirement that its vehicles carry two license
plates.

The most common objections to changing to a single plate on GSA Fleet vehicles were
they would be stopped and ticketed in states that require two plates; front plates are

                                            4
needed to assist guards in clearing vehicles for entry to Federal facilities; front plates
quickly prove Government ownership at those locations that require proof of insurance
or Government ownership; and the reduced identification would result in greater non-
official vehicle usage.

We contacted state patrol offices in states that require two plates, and asked whether
they ticket vehicles from states that require only one plate. The patrol officials
universally stated they do not—they abide by the requirements of the states in which
vehicles are registered. As a consequence, their enforcement of the requirement for
two plates on Federal vehicles depends on their knowledge of the requirement.

Federal security officials we contacted stated, and we believe, guards should not clear
vehicles for entry based on Federal plates alone, but should also be checking the
personal identification of the occupants. Removal of the front plate would discourage
over reliance on the plates alone, and Federal ownership could be established by
scrutiny of the rear plate. Also, as proposed below, a decal could be added to the
windshield to show Federal ownership of the vehicle.

Some individuals might be more inclined to use Fleet vehicles for nonofficial purposes in
vehicles without front plates. However, the repercussions of such behavior are
generally minimal compared to the repercussions of deliberate misuse of lost and stolen
plates to disguise illegal activity. If decals were placed in the front windshields, they
would provide additional evidence of Government ownership to discourage employee
misuse.

Our experience has shown municipalities have for many years used decals mounted on
the interior of windshields to register vehicles within their municipalities. The decals are
difficult to duplicate or to remove without destroying them. The Post Office uses
external decals in place of license plates on the vehicles in its fleet that carry traditional
Post Office logos and markings that clearly identify them as Post Office vehicles. Also,
the country of Mexico, because of license plates theft problems, requires both plates
and an inside mounted decal to discourage thefts. Decals are not an untested option.

We believe GSA Fleet and other Federal agencies could reduce license plate thefts by
going to a single plate and mounting a decal inside the windshield of each vehicle. This
determination should be made by GSA with due regard for the requirements and policy
considerations relating to conspicuous identification under 31 U.S.C 1344 and 1349,
and 40 U.S.C. 609. Given the policy considerations that will likely underlie such a
determination, the OIG is not making a recommendation for a particular change in
license plate or decal usage, but is only recommending that GSA consider changes in
view of the issues discussed.

Ideally, the decal inside the windshield would be a miniaturized version of the license
plate. However, manufacture and distribution of matching plates and decals may prove
overly difficult or burdensome. If so, decals of a single design containing a hologram or
other difficult to duplicate security feature that provides for the addition of the owning

                                              5
agency’s logo during manufacture could be developed and used. The last option would
enable easy initial distribution and installation because the decal number would not
have to be matched to the license plate number, and easy decal replacement when
windshields require replacement. Decals would also help to discourage improper use of
the vehicles.

The addition of a decal along with the move to a single plate, typically mounted on the
rear of GSA Fleet and other Federal vehicles would discourage theft because both a
decal and plate would be required to give the appearance of validity; insure prompt
reporting of lost and stolen plates because driving with no plates would be very difficult;
and improve security at Federal facilities because the changes would require guards to
more closely scrutinize vehicles before allowing entry.

The GSA Office of Governmentwide Policy (OGP) governs Federal vehicle license plate
requirements, not GSA Fleet. OGP currently requires Federal vehicles to display
license plates on both the front and back of vehicles. Any changes to this policy must
be coordinated and promulgated by OGP, and would affect not only GSA Fleet vehicles,
but all Federal vehicles. Other Federal agencies’ circumstances and experiences with
lost and stolen plates may be different than GSA Fleet’s.

Recommendation

We recommend to the Acting Associate Administrator, Office of Governmentwide
Policy, that the Office of Travel, Transportation and Asset Management:

      1.     Analyze whether the Federal Management Regulation should be changed
             to require one license plate per Federal vehicle rather than two.

Management’s Response

The Acting Associate Administrator, Office of Governmentwide Policy, concurred with
Recommendation Number 1 in his response to the draft report. A copy of his response
is provided in Appendix A.

Finding 2 - Lost or Stolen Plates Can Be Used Indefinitely

Federal license plates currently have no expiration dates, so lost or stolen plates can be
used indefinitely unless a law enforcement officer has reason to check on a license
plate number. Although their design has changed over the years, older plates are still
used on Federally owned vehicles. Therefore, there is no assurance that misplaced or
stolen plates of any age would be noticed. Establishing a requirement for expiration
dates on all Federal plates would greatly reduce the likelihood of stolen or lost plates
being used indefinitely without detection.

Our discussions with OGP representatives disclosed the office’s intent to establish a
requirement for Federal license plate expiration dates, and that it is working with

                                            6
Federal agencies to determine what the expiration dates should be and how best to
establish them. We found evidence of the need for the establishment of Federal license
plates expiration dates, but not for what the expiration dates should be. We believe the
collective wisdom of OGP and agency representatives will enable them to establish the
most beneficial and realistic expiration requirements.

Recommendation

We recommend to the Acting Associate Administrator, Office of Governmentwide
Policy, that the Office of Travel, Transportation and Asset Management:

      2.     Continue its efforts to reach agreement with Federal agencies to change
             the Federal Management Regulation to require Federal license plate
             expiration dates.

Management’s Response

The Acting Associate Administrator, Office of Governmentwide Policy, concurred with
Recommendation Number 2 in his response to the draft report. A copy of his response
is provided in Appendix A.


PART II – FAS Findings and Recommendations

Finding 3 - Large Quantities of License Plates Kept in Storage

Excessive quantities of license plates from prior years were stored at some locations
throughout the country because Fleet had no comprehensive list of available license
plates nor an effective system for matching orders with existing stocks. The excessive
quantities increased the likelihood of misplaced, lost or stolen plates.

Although Fleet tracks license plates assigned to vehicles in its main computer operating
system, the Fleet Management System (FMS), the records of non-assigned plates on
hand were typically limited to spreadsheet files maintained on a desktop computer at
each FMC.

Fleet determines the approximate number of vehicles and license plates it will need at
the beginning of each fiscal year and places a production order with UNICOR, its
license plate supplier, for the number of plates it anticipates needing. This is done
because UNICOR cannot otherwise ensure timely delivery of the plates. UNICOR
produces the license plates and places them in secure storage. The FMCs place
delivery orders to UNICOR through Fleet’s central office, and UNICOR selects plates
from storage and ships them directly to the FMCs.

At the time of our audit, UNICOR shipped license plates directly to 63 Fleet FMCs and
sub-FMCs. We visited the nine field locations listed earlier, which constituted about 14

                                           7
percent of the total. The inventory records for the nine field locations and Central Office
showed carryover stock from FY06 totaling about 3,100 sets of plates, with quantities at
individual locations ranging from 72 to 723 sets. The largest carryover quantities at
three of the locations were 723, 700 and 667 sets. Although the largest portion of the
sets at these locations were ordered for FY06, there were plates in stock that had been
held four or more years.

If the same general pattern held true for the other 54 locations, which we did not check,
the estimated carryover was about 18,000 sets of plates. With FY06 purchases of
about 39,100 vehicles, if the other locations had similar carryovers, the total
represented about 45 percent more than the number of vehicles purchased.

Centralizing the inventories of license plates ordered and held by each FMC into a
single listing maintained on Fleet’s FMS would make information about the number of
plates ordered and on hand much more readily available. This would be especially true
if license plates are added to the listing as they are ordered; and receipts, transfers,
assignments and destruction are also recorded in the listing. Most of this information
should be attainable through links to other FMS files, such as the Vehicle File in which
vehicle assignments are recorded.

The system would keep FMCs, regional management and Fleet’s Central Office
management informed of inventory levels, enable reduction of plate inventories, and
assist license plate ordering. The inventory carryover from FY06 to FY07 showed a
need to reduce the inventories to more realistic levels to lower the likelihood of license
plates being misplaced, lost or stolen.

Recommendation

We recommend to the Commissioner, Federal Acquisition Service, that GSA Fleet:

      3.     Establish a central license plate listing in its central computer, the Fleet
             Management System, that at a minimum, includes the license plate
             numbers and locations of all unassigned GSA Fleet license plates.

Management’s Response

The Commissioner, Federal Acquisition Service, concurred with Recommendation
Number 3 in his response to the draft report. A copy of his response is provided in
Appendix B.

Finding 4 - Agencies with State Plates Retain GSA Fleet Plates But Do Not Always
Control Them Properly

Fleet vehicles that used state license plates to hide their Federal ownership retained
GSA Fleet license plates as well. Some of these vehicles have been turned in at the
end of their life cycle with the GSA Fleet plates missing. Fleet has no way of knowing

                                            8
when the plates disappeared or whether they were subsequently used for improper or
illegal purposes.

Fleet has about 7,800 vehicles that display local state plates instead of GSA Fleet
license plates to conceal their Federal Government ownership. In most cases, vehicles
have been assigned with the GSA Fleet plates, the state plates added later, and the
GSA Fleet plates retained by the customer agency.

In January 2007 the Director of Fleet issued instructions to regional activities to cease
leaving the GSA Fleet plates with state-plated vehicles unless an agency could justify
the need to retain the GSA Fleet plates and agreed to properly secure them. Returned
GSA Fleet plates were to be destroyed.

We agree with this approach, and believe the need to retain GSA Fleet plates in state-
plated vehicles should be rare. The most common argument we encountered for
retaining the plates was the GSA Fleet plates were needed to show Federal ownership
to facilitate entry to Federal property. We find this argument weak. Federal facilities
security personnel stated, and we believe, entry to Federal facilities should not be
allowed until vehicle occupants provide personal identification that shows authority to
enter the facility.

It was also argued GSA Fleet plates are needed because some Federal facilities do not
allow authorized personnel to enter with non-Federal vehicles until proof of insurance is
provided. Also, Federal plates need to be kept with state-plated vehicles to help
validate charge card purchases because the charge cards display the Federal license
plate numbers.

A copy of the certificate of origin, which lists the vehicle identification number and GSA
Fleet as the owner, or state registration papers for the state plates when GSA Fleet is
shown as the vehicle owner, should suffice to show Federal ownership, especially if the
driver produces personal Federal law enforcement or similar identification.

The need to have Federal plates to validate charge card purchases also seems weak.
For swiped purchases at the pump, this would not be an issue. For other purchases,
the Maintenance Control Center (MCC) is listed as a contact point on the back of the
card, and could be contacted to validate purchases. Producing a set of plates that
match a charge card provides no assurance both were not stolen from a Federal vehicle
unless the MCC is contacted for verification.

The Director’s January directive also stated he saw no reason to order GSA Fleet plates
for the vehicles that carry only state plates, which is a sound policy. However, a means
of assigning GSA Fleet plate numbers will still be required for these vehicles as long as
Fleet continues to identify vehicles internally by GSA Fleet license plate numbers. This
should be relatively easy if a central listing of license plate numbers, as discussed
above, is established. Numbers could be added to the listing and assigned to state-



                                            9
plated vehicles, no orders placed for GSA Fleet license plates with these numbers, and
the listing clearly annotated about what occurred.

Recommendations

We recommend to the Commissioner, Federal Acquisition Service, that GSA Fleet:

       4.A    Not allow GSA Fleet license plates be retained with state-plated vehicles
              unless an agency can clearly establish a definite need for the GSA plates;
              and,

       4.B    Establish a means of assigning GSA Fleet license numbers to state-plated
              cars for vehicle identification within Fleet’s system, but without issuance of
              actual plates.

Management’s Response

The Commissioner, Federal Acquisition Service, concurred with Recommendation
Numbers 4.A and 4.B in his response to the draft report. A copy of his response is
provided in Appendix B.


Finding 5 - Extra Plates Manufactured For Trailers But Not Used

Fleet receives two plates for its trailers, but the trailers have only one mounting position
on the back. The extra plates have either been given to customer agencies for safe
keeping, mounted over the first plate on the back of trailers, or retained by the FMCs.
The trailers are kept for long periods, and accountability for the extra plates has
sometimes been overlooked. As a result, Fleet has little assurance the extra plates are
not being misused.

Although Fleet has a relatively low number of trailers, about 850, they account for 850
extra license plates that serve no purpose. If the plate fastened to a trailer is lost, the
additional plate is not to be installed. Rather, the extra plate is supposed to be
destroyed and the missing plate reported to the Department of Homeland Security,
Federal Protective Service. The missing plate is then posted to a law enforcement
computer as no longer valid. If it appears on a vehicle, it is to be considered stolen.

Fleet classifies its trailers as Class G91 vehicles, and the first 3 characters of their
license plates are G91. Although Fleet personnel and others familiar with the meaning
of the classes shown on GSA Fleet license plates realize Class G91 applies to trailers,
others do not. A G91 plate placed on another type vehicle would simply appear as a
Federal license plate to most people. A lost or stolen G91 license plate could be placed
on any type of vehicle and most individuals would not recognize the class mismatch.




                                            10
For new trailers, the most appropriate action is to either order only one license plate if
this can readily be done, or the extra plate destroyed on receipt, and the destruction
documented. For existing trailers, the extra plates should be located, destroyed and the
destruction documented. The second plate serves no useful purpose, but can fall into
the wrong hands and be used inappropriately.

Recommendations

We recommend to the Commissioner, Federal Acquisition Service, that GSA Fleet:

      5.A    Either order one plate when ordering trailer plates, or immediately destroy
             the second plate upon receipt if two plates have to be ordered; and

      5.B    Locate, destroy, and document the destruction of the second plate for
             existing trailers.

Management’s Response

The Commissioner, Federal Acquisition Service, concurred with Recommendation
Numbers 5.A and 5.B in his response to the draft report. A copy of his response is
provided in Appendix B.


Finding 6 - Plates Lost After Vehicle Turn In

The license plates of vehicles turned in by customers frequently are not removed
immediately, nor destroyed until the vehicles are sold. As a result, plates disappear
between vehicle turn in and sale.

Customer agencies typically turn in vehicles for replacements at contractor facilities.
The contractor completes an accountability form that details the vehicle’s condition and
the number of license plates returned, and has the agency representative sign the form
acknowledging agreement with the report. If the contractor is also selling the vehicle,
the contractor typically removes the license plates and places them in storage. If sale
will take place elsewhere, the plates usually stay with the vehicles until they reach the
sale point.

These procedures are followed so the plates are kept with vehicles until ownership
transfers from Fleet. In the event Fleet needs extra vehicles to deal with a crisis, such
as a hurricane or other major catastrophe, the availability of the plates allows Fleet to
withdraw vehicles from the sales process and have the license plates immediately
available.

However, the charge cards, each of which lists the license plate number of the vehicle
to which it is assigned, are removed at the time of turn in, deactivated and destroyed.



                                            11
Vehicles cannot be fully reactivated until new charge cards, again by corresponding
license plate numbers, are ordered, produced and delivered to the vehicles.

Besides comments from Fleet personnel that license plates were lost between the time
of vehicle turn in and destruction of the plates once the vehicles were sold, we found
comments in the remarks section of the data stored in the FMS Lost Stolen file that
showed repeated occurrences.

A download of all the records in the FMS Lost and Stolen file on June 7, 2007 resulted
in a total of 2,849 records. Use of software to identify records containing statements
indicating GSA Fleet license plates were lost in transit after vehicle turn in or at the
auction house identified about 240 records. A visual scan of the remarks field of these
records indicated many reported losses occurred after vehicles were turned in while
others were more ambiguous about where the loss occurred. The time consuming task
of reading the remarks section of all 2,849 records was not attempted, but those
identified indicated plate losses after vehicle turn-in is not uncommon.

The losses after turn in could be reduced by removing the license plates from vehicles
at the point they are no longer needed, and by not retaining them until the vehicles are
sold. In some cases plates are needed on vehicles after being turned in so they can be
driven, rather than transported to the sales location. In others, the plates are no longer
needed once the vehicles have been turned in.

We see little point in retaining license plates until vehicles are sold. License plates
would not be as immediately available, should a need arise to reactivate vehicles.
However, if a centralized listing of available license plates is developed, replacement
license plates could be immediately identified and sent by overnight delivery and should
reach vehicles at approximately the same time as replacement charge cards. Without
the charge cards along with license plates, reactivated vehicles would be difficult for
customers to use.

Recommendation

We recommend to the Commissioner, Federal Acquisition Service, that GSA Fleet:

      6.     Destroy license plates as soon as practical once they are no longer
             needed, rather than holding them until vehicles are sold.

Management’s Response

The Commissioner, Federal Acquisition Service, concurred with Recommendation
Number 6 in his response to the draft report. A copy of his response is provided in
Appendix B.




                                           12
Finding 7 - Reporting Losses to Law Enforcement Agencies Not Always Consistent

Lost and stolen license plates are posted in the National Crime Information Center, a
system controlled by the Federal Bureau of Investigation (FBI). Until Fleet’s losses are
posted in this system, it has little assurance law enforcement offices will be aware of
missing license plates. However, Fleet offices experienced difficulty getting lost and
stolen license plates posted in the National Crime Information Center (NCIC) system in
the past because of communications breakdowns with the Department of Homeland
Security (DHS), Federal Protective Service (FPS) Mega Centers. These are Fleet’s
contact points for getting the information posted. Although communication improved
after Fleet developed a computer program to help with the process, we found
indications of some continued weaknesses in the reporting.

In the event a license plate is lost or stolen, Fleet is required to report it to one of four
FPS Mega Centers. FPS uses the Mega Centers as communication and dispatch
networks to provide communications for police business and FPS customers. Once
Fleet notifies a Mega Center of a license plate loss or theft, the Mega Center is
supposed to respond back to Fleet with two numbers: the DHS case number, and the
NCIC case number. These numbers provide assurance the lost or stolen license plate
information has been posted in the NCIC system, which holds information on criminal
activity in the United States. Once posted, the information becomes available to law
enforcement officials throughout the country.

Fleet does not supply information directly to NCIC but to FPS because the FBI will only
allow law enforcement agencies direct access to the system. However, Fleet has
experienced instances when information reported to FPS was not entered into the NCIC
system. Fleet developed a computer program its field offices use to help with
communicating license plate losses and thefts to FPS, but occasional difficulties were
still experienced. And some Fleet offices assured they obtained the case numbers and
others did not. Those offices experiencing the greatest success were those that had a
single individual who reported the losses and thefts, established a rapport with FPS,
and followed up to obtain the FPS and NCIC case numbers when FPS was not
forthcoming with them.

An incident related to us by an FMC manager regarding stolen license plates helps to
demonstrate the importance of assuring lost and stolen plates are posted in the NCIC
system. The manager, located in a southern border state, was returning to the FMC in
a GSA Fleet vehicle and happened to note a Chrysler Grand Caravan with GSA Fleet
license plates. His attention was initially drawn to the vehicle because Fleet has not
typically purchased Grand Caravans. It was only after noting the incongruity between
the GSA Fleet license plates and the type vehicle that he noticed the vehicle class
designation of the license plate—it was the wrong class for the vehicle.

He called the FMC, and learned the plates were listed in Fleet’s system as stolen. He
then called 911 and notified the call center that he was following a vehicle with stolen
GSA Fleet plates. The center routed him to the county police, who declined to act

                                             13
because the vehicles were getting close to a city. The county police routed the call to
the city the vehicles were approaching, and the FMC manager was placed on hold for
an extended period. In the meantime, the Caravan driver apparently suspected he was
being followed, abruptly cut across several lanes of traffic and exited the expressway
they were on. The manager was not able to react quickly enough to continue following
the Caravan.

Upon further research, he found the license plates had been stolen from a military
recruiter’s vehicle in December 2005, almost one year earlier, and provided evidence
that notice had been sent to the appropriate FPS mega center. However, FPS stated
they had no record of the reporting, and the FMC did not have the NCIC control
number. The FMC submitted another report and obtained the NCIC control number. As
of the end of May 2007, the license plates had not been recovered.

The incident shows the need to ensure thefts and losses get posted in the NCIC
system, that even individuals with extensive Fleet experience may not immediately
notice license plates with the wrong class designation, and that stolen plates can stay in
circulation for long periods.

Recommendation

We recommend to the Commissioner, Federal Acquisition Service, that GSA Fleet:

      7.     Centralize its reporting of lost and stolen plate information to the
             Department of Homeland Security, Federal Protective Service to the
             extent practical.

Management’s Response

The Commissioner, Federal Acquisition Service, concurred with Recommendation
Number 7 in his response to the draft report. A copy of his response is provided in
Appendix B.

Additional Issue

UNICOR Manufacturing. We visited the UNICOR facility in Cumberland, Maryland to
review its procedures for manufacturing license plates. We found it relied heavily on
manual processes. For instance, manufacturing information was transferred manually
between computers. The decals that provide instructions where to return lost plates
were manually attached to the back of the plates, not by machine. Finished plates were
manually inspected, put into plastic sleeves, and placed in shipping containers.
UNICOR’s focus is to keep a high number of the inmates employed, not to establish
highly automated processes that may be more efficient and contain more reliable
safeguards against manufacturing errors than manual processes.




                                           14
On leaving the prison factory, the inmates were required to empty their pockets, go
through a metal detector, and were patted down. Entrance and exit to the factory was
through multiple security doors. The security procedures appeared to provide adequate
assurance the plates will not be stolen from the factory area. One of the final checks
carried out by the supervisor of the warehouse from which the plates are shipped is to
ensure the shipping address corresponds to the address shown on Fleet’s shipping
order.

Although a more automated manufacturing and shipping processes could provide
additional controls, those used by UNICOR appeared adequate. We found no
reportable conditions.

Internal Controls

Control weaknesses noted during the audit have been addressed in the report.




                                         15
                                                      APPENDIX A


                     AUDIT OF GSA FLEET’S
                 CONTROL OF LICENSE PLATES
                FEDERAL ACQUISITION SERVICE
            REPORT NUMBER A070076/Q/5/P08001/P08001

OFFICE OF GOVERNMENTWIDE POLICY’S RESPONSE TO THE DRAFT REPORT




                              16
                                                   APPENDIX B


                   AUDIT OF GSA FLEET’S
                CONTROL OF LICENSE PLATES
               FEDERAL ACQUISITION SERVICE
             REPORT NUMBER A070076/Q/5/P08001

FEDERAL ACQUISITION SERVICE’S RESPONSE TO THE DRAFT REPORT




                            17
                                                                      APPENDIX C



                             AUDIT OF GSA FLEET’S
                          CONTROL OF LICENSE PLATES
                         FEDERAL ACQUISITION SERVICE
                       REPORT NUMBER A070076/Q/5/P08001

                               REPORT DISTRIBUTION

                                                                          Copies

Acting Associate Administrator, Office of Governmentwide Policy (M)          3

Commissioner, Federal Acquisition Service (Q)                                3

Deputy Associate Administrator, Office of Transportation and
Personal Property (MT)                                                       1

Assistant Commissioner, Office of Travel, Motor Vehicles, and Card
Services (QM)                                                                1

Director, GSA Fleet (FFF)                                                    1

Assistant Inspector General for Auditing (JA)                                3

Audit Follow-up and Evaluation Branch (BECA)                                 1




                                           18
